     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
February 29, 2012



Report Number: A-04-11-03065

Mr. Leslie A. Donahue
President and CEO
Piedmont Hospital
1968 Peachtree Road North West
Atlanta, GA 30309

Dear Mr. Donahue:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Piedmont Hospital Did Not Fully Comply With Medicare
Requirements for Obtaining and Reporting Credits for Replacement Cardiac Medical Devices.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John Drake, Audit Manager, at (404) 562-7755 or through email at
John.Drake@oig.hhs.gov. Please refer to report number A-04-11-03065 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Leslie A. Donahue


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
   Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




 PIEDMONT HOSPITAL DID NOT FULLY
      COMPLY WITH MEDICARE
 REQUIREMENTS FOR OBTAINING AND
REPORTING CREDITS FOR REPLACEMENT
     CARDIAC MEDICAL DEVICES



                          Daniel R. Levinson
                           Inspector General

                            February 2012
                            A-04-11-03065
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital inpatient and outpatient services under distinct prospective payment
systems.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (1) the device is replaced without cost to the provider or the
beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. For services furnished on or after January 1, 2008, CMS also requires a provider to
report the modifier “FC” on a claim that includes a procedure code for the insertion of a
replacement device if the provider received a credit from the manufacturer of 50 percent or more
of the cost of the replacement device.

Similarly, for inpatient discharges on or after October 1, 2008, CMS established reporting
requirements for a provider that incurs no cost, receives full credit, or receives a credit for a
replaced device that is 50 percent or greater than the cost of the device. In such circumstances,
CMS requires the provider to report the value code “FD” and to bill the amount of the credit in
the amount portion for that value code. CMS further requires the provider to report appropriate
condition codes to indicate a medical device replacement. Condition codes are codes entered on
the CMS-1450 (UB-04) form that describe conditions or events that apply to a billing period.

Piedmont Hospital

Piedmont Hospital (Piedmont) is a 481-bed acute tertiary care facility located in Atlanta,
Georgia. Cahaba Government Benefit Administrators, LLC (Cahaba) has responsibility for the
administration and processing of all Part A (inpatient) and Part B (outpatient) claims in Georgia.
Cahaba paid Piedmont a total of $7.9 million for 574 claims for outpatient procedures that
included the replacement of medical devices for the 2-year period ending December 31, 2009
and $11.5 million for 562 inpatient claims covering the 15-month period ending December 31,
2009.



                                                 i
OBJECTIVE

Our objective was to determine whether Piedmont complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

SUMMARY OF FINDINGS

Piedmont did not fully comply with Medicare requirements for obtaining credits available from
manufacturers or for reporting the appropriate billing codes and charges to reflect the credits it
received. For 76 of our sampled 79 claims (46 outpatient and 30 inpatient), there were no
available credits, or the credits were partial credits received from manufacturers that did not
represent at least 50 percent of the cost of the devices and therefore were not reportable. For the
three remaining claims, credits were available from manufacturers and reportable; however:

   •   For one inpatient claim, Piedmont did not pursue a credit that was available under the
       terms of the manufacturer’s warranty.

   •   For one inpatient claim, Piedmont obtained a full credit but did not report the “FD” value
       code and appropriate condition code on the claim to alert Cahaba that a payment
       adjustment was needed.

   •   For one outpatient claim, Piedmont obtained full credit but did not report the “FB”
       modifier to alert Cahaba that a payment adjustment was needed. However, Piedmont
       rebilled Medicare at a reduced rate of $1, which prevented Piedmont from being overpaid
       for the claim.

Piedmont was overpaid $7,625 for two inpatient claims. However, Piedmont received no
overpayment for the third claim. These overpayments occurred because Piedmont did not
(1) have a written policy on how to obtain credits available under the terms of manufacturers’
warranties or (2) have controls to report the appropriate billing codes and charges to reflect
credits due from manufacturers.

RECOMMENDATIONS

We recommend that Piedmont:

   •   adjust and resubmit to Cahaba the two erroneous claims to correct any outstanding
       portion of overpayments totaling $7,625;

   •   review the 530 inpatient claims and consider reviewing the 527 outpatient claims that
       were not included in our sample, and resubmit the claims to Cahaba as appropriate; and




                                                 ii
   •   strengthen its procedures to obtain credits available from manufacturers and establish
       procedures to report to Cahaba the credits that Piedmont was entitled to, irrespective of
       whether the credits were obtained, for replaced devices in accordance with Medicare
       requirements.

PIEDMONT HOSPITAL COMMENTS

In its comments on our draft report, Piedmont agreed with our third recommendation to adopt
additional policies and procedures that would strengthen its ongoing programs to document that
it appropriately requested manufacturer credits for devices under warranty. Piedmont, however,
neither agreed that the claims we identified were in error nor agreed that it should review the
remaining claims in our audit population.

After removing the personally identifiable information, we included Piedmont’s comments as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on Piedmont’s comments, we modified our second recommendation. However, nothing in
Piedmont’s comments caused us to change our first recommendation.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Hospital Prospective Payment Systems .......................................................1
              Credits for Replaced Medical Devices ........................................................2
              Reimbursement for Medical Device Replacement ......................................2
              Piedmont Hospital........................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
               Objective ......................................................................................................3
               Scope ............................................................................................................3
               Methodology ................................................................................................4

FINDINGS AND RECOMMENDATIONS ....................................................................5

          MEDICARE REQUIREMENTS .............................................................................5
               Prudent Buyer Principle ...............................................................................5
               Coding Requirements for Medical Device Credits .....................................6

          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS ..............................7
              Piedmont Did Not Obtain Available Credits ...............................................7
              Piedmont Did Not Report That It Received Credits ....................................7

          MEDICARE OVERPAYMENTS ....................................................................…...8

          RECOMMENDATIONS .........................................................................................8

          PIEDMONT HOSPITAL COMMENTS .................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................9

APPENDIXES

          A: CORRESPONDING HEALTHCARE COMMON PROCEDURE CODING
             SYSTEM AND DIAGNOSIS-RELATED GROUPS

          B: PIEDMONT HOSPITAL COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part A of Title XVIII provides inpatient hospital insurance while Part B of
Title XVIII provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Prospective Payment Systems

Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. All services and items within an APC group are
comparable clinically and require comparable resources.

Inpatient Prospective Payment System

The Social Security Act Amendments of 1983, Public Law 98-21, enacted on April 20, 1983,
established a prospective payment system for Medicare reimbursement to hospitals. Section
1886(d) of the Act sets forth a system of payments for the costs of acute care hospital inpatient
stays based on prospectively set rates effective for services furnished on or after October 1, 1983.
Under the inpatient prospective payment system (IPPS), each case is categorized into a
diagnosis-related group (DRG). Each DRG has a payment weight assigned to it based on the
average resources used to treat Medicare patient in that DRG.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is
applicable.


                                                        1
Under both the OPPS and IPPS, outlier payments are available when exceptionally costly
services exceed established thresholds.

Credits for Replaced Medical Devices

Common medical devices implanted during inpatient and outpatient procedures include
pacemakers, cardioverter defibrillators, and their associated leads. Occasionally, devices need to
be replaced. Providers may receive full or partial credit from manufacturers for devices that are
covered under warranty or replaced because of recalls. Warranties vary among manufacturers
and product lines but commonly cover replaced devices on a pro rata basis depending on the age
of the device. Providers generally must send replaced devices back to the manufacturers within a
specified time after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during inpatient and
outpatient procedures, Medicare generally requires payment adjustments. Specifically, for 43
inpatient DRGs and 31 types of devices that fall within 21 outpatient APCs, Medicare reduces
the payment for the replacement of the device if the provider is entitled to full or partial credits
from the manufacturer.

Outpatient Reimbursement

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. 2 For outpatient services furnished on or after January 1, 2008, CMS also requires the
provider to report the modifier “FC” on a claim that includes a procedure code for the insertion
of a replacement device if the provider receives a credit from the manufacturer of 50 percent or
more of the cost of the replacement device. Providers must use these modifiers as required to
ensure that Medicare makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24, 2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.




2
 The provider’s failure to report reduced charges on a claim with the “FB” modifier could result in excessive or
unwarranted outlier payments.



                                                         2
Inpatient Reimbursement

For inpatient discharges on or after October 1, 2008, CMS established reporting requirements for
a provider that incurs no cost, receives full credit, or receives a credit for a replaced device that is
50 percent or greater than the cost of the device. In such circumstances, CMS requires the
provider to report the value code “FD” on its claim and to bill the amount of the credit in the
amount portion for that value code. CMS further requires the provider to report condition codes
49 or 50 to indicate a medical device replacement. 3

Piedmont Hospital

Piedmont Hospital (Piedmont) is a 481-bed acute tertiary care facility located in Atlanta,
Georgia. As the Medicare contractor for hospitals in Georgia, Cahaba Government Benefit
Administrators (Cahaba) administers and processes Piedmont’s claims for Medicare services. 4

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Piedmont complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

Scope

Our audit covered $19.3 million in Medicare payments to Piedmont for procedures involving the
possible replacement of medical devices. Our audit population consisted of 1,136 claims: 574
outpatient claims, totaling $7.9 million, with dates of service during the 2-year period ending
December 31, 2009; and 562 inpatient claims, totaling $11.5 million, with dates of services
during the 15-month period ending December 31, 2009. 5 We limited our audit to claims that
involved the replacement of pacemakers, cardioverter defibrillators, and their associated leads 6
The listing of the corresponding 6 outpatient HCPCS codes and 12 inpatient DRGs applied in
this audit is included as Appendix A. During the audit periods, Piedmont did not submit any



3
  Effective April 1, 2006, CMS required the use of two new condition codes to track devices provided without cost
to providers. Condition code 49 refers to the replacement of a device that is not functioning properly and condition
code 50 refers to devices subject to recalls. Medicare payment edits require the presence of both value and
condition codes for inpatient claims involving a medical device replacement. Medicare Claims Processing Manual,
Pub. 100-04, CR 4058, Transmittal 741.
4
    Cahaba has been a Medicare contractor since the inception of the program in 1966.
5
 Requirements for use of the FD code for inpatient medical device credits did not commence until October 1, 2008.
Medicare Claims Processing Manual, Pub. 100-04, CR 5860, Transmittal 1509.
6
 Prior Office of Inspector General (OIG) audits of replaced medical device credits disclosed that these types of
devices presented the greatest risk of non-compliance with Medicare requirements.


                                                          3
outpatient claims with “FB” or “FC” modifiers, and it did not submit any inpatient claims with
the “FD” value code or the appropriate condition code for items selected in our sample.

We limited our internal control review to Piedmont’s controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at Piedmont in Atlanta, Georgia, from March through April 2011.
We also met with Cahaba officials in Birmingham, Alabama.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted from CMS’s National Claims History file Piedmont’s outpatient paid claim data
       for the 2-year period ending December 31, 2009, and inpatient paid claim data for the
       15-month period ending December 31, 2009;

   •   filtered the paid claims data to identify (1) 574 outpatient claims that included procedures
       for the replacement of any of the six specified HCPCS and (2) 562 inpatient claims that
       included the 12 specific DRGs (Appendix A);

   •   selected judgmental samples of 47 outpatient claims and 32 inpatient claims and
       reviewed the beneficiaries’ medical records, remittance advices, and manufacturers’
       warranties, to determine whether Piedmont should have submitted the claims with the
       applicable billing codes and reduced charges;

   •   reviewed Piedmont’s Medical Device Credit Questionnaire on their procedures for
       identifying and obtaining credits and reporting on its Medicare claims that the
       manufacturers provided credits for replaced devices;

   •   interviewed officials from select device manufacturers that conducted business with
       Piedmont to identify their requirements for issuing credits and obtained lists of credits
       issued to Piedmont to determine whether Medicare payment adjustments were needed;

   •   obtained and reviewed medical device warranties issued by the manufacturers for select
       cardiac devices;

   •   reviewed adjusted claims that Piedmont resubmitted to Cahaba;

   •   had Cahaba calculate the correct payments for those claims for which payment
       adjustments were needed; and



                                                4
   •   discussed the results of our review with Piedmont officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Piedmont did not fully comply with Medicare requirements for obtaining credits available from
manufacturers or for reporting the appropriate billing codes and charges to reflect the credits it
received. For 76 of our 79 sampled claims (46 outpatient and 30 inpatient), there were no
available credits, or the credits were partial credits, received from manufacturers that did not
represent at least 50 percent of the cost of the devices and therefore were not reportable. For the
three remaining claims, credits were available from manufacturers and reportable; however:

   •   For one inpatient claim, Piedmont did not pursue a credit that was available under the
       terms of the manufacturer’s warranty.

   •   For one inpatient claim, Piedmont obtained a full credit but did not report the “FD” value
       code and appropriate condition code on the claim to alert Cahaba that a payment
       adjustment was needed.

   •   For one outpatient claim, Piedmont obtained full credit but did not report the “FB”
       modifier to alert Cahaba that a payment adjustment was needed. However, Piedmont
       rebilled Medicare at a reduced rate of $1, which prevented Piedmont from being overpaid
       for the claim.

Piedmont was overpaid $7,625 for two inpatient claims. However, Piedmont received no
overpayment for the third claim. These overpayments occurred because Piedmont did not
(1) have a written policy on how to obtain credits available under the terms of manufacturers’
warranties or (2) have controls to report the appropriate billing codes and charges to reflect
credits due from manufacturers.

MEDICARE REQUIREMENTS

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services….” Furthermore, CMS’s Provider Reimbursement Manual, part 1, section
2102.1, states: “Implicit in the intention that actual costs be paid to the extent they are
reasonable is the expectation that the provider seeks to minimize its costs and that its actual costs
do not exceed what a prudent and cost conscious buyer pays for a given item or service. If costs
are determined to exceed the level that such buyers incur, in the absence of clear evidence that
the higher costs were unavoidable, the excess costs are not reimbursable under the program.”


                                                  5
Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment.
The credits or payments that could have been obtained must be reflected as a reduction of the
cost of the equipment supplied.”

Coding Requirements for Medical Device Credits

Outpatient Coding Requirements

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual explains how a provider should report no-cost and reduced-cost devices
under the OPPS. For services furnished on or after January 1, 2007, CMS requires the provider
to report the modifier “FB” and reduced charges on a claim that includes a procedure code for
the insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device (the Manual,
chapter 4, § 61.3.1). If the provider receives full credit from the manufacturer for a replaced
device that is less expensive than the replacement device, the provider must report a charge that
represents the difference between its usual charge for the device being implanted and its usual
charge for the device for which it received credit (the Manual, chapter 4, § 61.3.2).

For services furnished on or after January 1, 2008 , CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

Inpatient Coding Requirements

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device.

CMS guidance in Transmittal 1509, dated May16, 2008, explains how a provider should report
no-cost and reduced-cost devices under the IPPS. For services furnished on or after October 1,



                                                   6
2008, CMS requires providers to bill the amount of the credit in the amount portion for value
code “FD” when the provider receives a credit for a replaced device that is 50 percent or greater
than the cost of the device. Partial credits for less than 50 percent of the cost of the device need
not be reported with the “FD” value code. 7 In addition, CMS Transmittal 741, dated November
4, 2005, and effective April 1, 2006, requires the use of two condition codes to track devices
provided without cost to providers. Condition code 49 refers to the replacement of a device
which is not functioning properly, and condition code 50 refers to devices subject to recalls.
Cahaba prepayment edits require the presence of both value and condition codes for inpatient
claims involving a medical device replacement.

NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Piedmont Did Not Obtain Available Credits

For one inpatient claim, Piedmont did not obtain a credit for a replaced lead that was available
under the terms of the manufacturer’s warranty. Specifically, according to Piedmont’s records
for the one claim, the lead was subject to recall. Although, the original lead was capped and left
inside the patient and replaced, Piedmont still qualified for the recall credit. Piedmont should
have obtained the credit, used the “FD” value code and appropriate condition code on its claim,
and received a reduced payment.

An overpayment of $4,000 for this claim occurred because Piedmont did not have established
procedures to obtain credits available under the terms of manufacturers’ warranties. 8

Piedmont Did Not Report That It Received Credits

For two claims Piedmont received full credits for a replaced device but did not report the
appropriate billing codes and charges to reflect the credits it received. Specifically, for one
outpatient claim, Piedmont received a full credit from the manufacturer but did not report the
required “FB” or “FC” modifier. However, the hospital rebilled Medicare at a reduced rate of $1
to reflect the credit received for the no-charge replaced device. For one inpatient claim,
Piedmont received a full credit but did not report the “FD” value code and appropriate condition
code on its claim.




7
  We identified an ambiguity created by section 100.8 of Chapter 3 of the Medicare Claims Processing Manual,
Pub. 100-04, as it currently reads. Whereas the regulation and Transmittal 1509 can be read to apply the “50 percent
or greater” threshold to the cost of the replaced device, section 100.8, effective October 1, 2009, can be interpreted
to apply the threshold to the cost of the replacement device. To remain consistent with the requirements of the
outpatient regulation, we interpreted the inpatient requirements to apply the threshold to the cost of the replacement
device, but note that for the inpatient claims identified below in which we determined that the hospital received a
credit which was 50 percent or greater than the cost of the replacement device, that the credit would have also been
50 percent or greater than the cost of the replaced device. As such, our determination of overpayments remained the
same under either interpretation.
8
    Piedmont subsequently received credits for the replaced cardiac device.


                                                           7
An overpayment of $3,625 for the one inpatient claim occurred because Piedmont did not have
controls for reporting medical device credits received from manufacturers. Specifically,
Piedmont did not have procedures for coordinating functions among the billing department to
ensure that it submitted claims with the appropriate modifier and reduced charges to initiate
reduced payments for credits received from manufacturers.

MEDICARE OVERPAYMENTS

Piedmont was overpaid $7,625 for two inpatient claims.

RECOMMENDATIONS

We recommend that Piedmont:

   •   adjust and resubmit to Cahaba the two erroneous claims to correct any outstanding
       portion of overpayments totaling $7,625;

   •   review the 530 inpatient claims and consider reviewing the 527 outpatient claims that
       were not included in our sample, and resubmit the claims to Cahaba as appropriate; and

   •   strengthen its procedures to obtain credits available from manufacturers and establish
       procedures to report to Cahaba the credits that Piedmont was entitled to, irrespective of
       whether the credits were obtained, for replaced devices in accordance with Medicare
       requirements.

PIEDMONT HOSPITAL COMMENTS

In its comments on our draft report, Piedmont agreed with our third recommendation to adopt
additional policies and procedures to strengthen its ongoing programs that would document that
it appropriately requests manufacturer credits for devices under warranty. Piedmont, however,
neither agreed that the claims we identified were in error nor agreed that it should review the
remaining claims in our audit population.

With respect to the claims that we found in error, Piedmont said that in one instance, the amount
of a credit it received was less than the cost of the device. Piedmont said that it considered the
device to be a combination of the warranted device (cardiac leads) plus an additional device
(cardiac generator) that the leads attach to. Using this reasoning, Piedmont concluded that the
credit amount was less than 50 percent of the combination of the leads and generator and
therefore not reportable.

Regarding the instance in which an available credit was not obtained, Piedmont said that there
was no requirement in the regulations that hospitals affirmatively pursue replacement device
credits. Piedmont also said that there was no billing error in this instance because it had not
received a credit when the claim was billed.




                                                8
Piedmont said that it was too burdensome for it to review the remaining claims that were not
sampled given the small number of errors that the OIG found.

In regard to our recommendation to strengthen its procedures for obtaining and reporting credits,
Piedmont stated that it was adopting additional policies and procedures to document that it
appropriately requested manufacturers’ credits for devices under warranty.

After removing the personally identifiable information, we included Piedmont’s comments as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on Piedmont’s comments, we modified our second recommendation. However, nothing in
Piedmont’s comments caused us to change our first recommendation.

In regard to our first recommendation, we do not agree with Piedmont’s contention that cardiac
leads should be combined with a cardiac generator for the purpose of determining the 50 percent
threshold amount applicable to warranty credits. The manufacturer separately warrants leads and
generators as separate devices. No manufacturer’s warranty covers the device combination
Piedmont described. Therefore, we continue to recommend that Piedmont adjust and resubmit
this claim to Cahaba for adjudication of the overpayment.

In regard to our finding that Piedmont did not obtain a credit for a replaced lead that was
available under the terms of the manufacturer’s warranty, Piedmont qualified for a recall credit,
but did not pursue it. Piedmont should report to Cahaba the credits that it was entitled to,
irrespective of whether the credits were obtained, for replaced devices in accordance with
Medicare requirements.

We also do not agree with Piedmont’s assertion that it was not required to pursue replacement
device credits. Federal regulations (42 CFR § 413.9) state that costs should be reasonable. In
addition, section 2102.1 of the Provider Reimbursement Manual states that there: “is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service.” Furthermore, section
2103 of the Provider Reimbursement Manual specifically states that, even if the provider fails to
pursue credits for devices, the credit amounts must still be reduced from the costs the provider
claimed. Therefore, based on guidance provided in the CFR and the Provider Reimbursement
Manual, Piedmont should pursue replacement device credits.

We continue to recommend that Piedmont review the 530 inpatient claims and, consider
reviewing the 527 outpatient claims that were not included in our sample, and resubmit the
claims as appropriate.




                                                9
APPENDIXES
   APPENDIX A: CORRESPONDING HEALTHCARE COMMON PROCEDURE
          CODING SYSTEM AND DIAGNOSIS-RELATED GROUPS

                Healthcare Common Procedure Coding System (HCPCS)

HCPC                                         Description
33233   Removal of permanent pacemaker pulse generator
33234
        Removal of transvenous pacemaker electrodes; single lead system, atrial or ventricular
33235   Removal of transvenous pacemaker electrode(s); dual lead system
33241   Subcutaneous removal of single or dual chamber pacing cardioverter-defibrillator pulse
        generator
33244   Removal of single or dual chamber pacing cardioverter-defibrillator electrode(s) by
        transvenous extraction
33284   Removal of an implantable, patient-activated cardiac event recorder

                        Inpatient Diagnosis-Related Groups (DRG)

DRG                                           DRG Description
222     Cardiac Defibrillator Implant with Cardiac Catheterization with Acute Myocardial
        Infarction/Heart Failure/Shock with Complication/Comorbidity (MCC) Major
 223    Cardiac Defibrillator Implant with Cardiac Catheterization with Acute Myocardial
        Infarction/Heart Failure/Shock without MCC
 224    Cardiac Defibrillator Implant with Cardiac Catheterization without Acute Myocardial
        Infarction/Heart Failure/Shock with MCC
 225    Cardiac Defibrillator Implant with Cardiac Catheterization without Acute Myocardial
        Infarction/Heart Failure/Shock without MCC
 226    Cardiac Defibrillator Implant without Cardiac Catheterization with MCC
 227    Cardiac Defibrillator Implant without Cardiac Catheterization without MCC
 242    Permanent Cardiac Pacemaker Implant with MCC
 243    Permanent Cardiac Pacemaker Implant with Complication/Comorbidity (CC)
 244    Permanent Cardiac Pacemaker Implant without CC/MCC
 259    Cardiac Pacemaker Device Replacement without MCC
 260    Cardiac Pacemaker Revision Except Device Replacement with MCC
 261    Cardiac Pacemaker Revision Except Device Replacement with CC
                      APPENDIX B: PIEDMONT HOSPITAL COMMENTS
	
                                                                                           Page 1 of 3

c:P~ PIEDMONT
lIlF HEALTHCARE
                                             December 23,2011


  VIA Overnight Delivery


  Ms. Lori S. Pilcher
  Regional Inspector General
   For Audit Services
  Region IV
  61 Forsyth Street, SW, Suite 3T41
  Atlanta, Georgia 30303

         Re:      Piedmont Hospital
                  DRAFT Report No.: A-04-11-03065

  Dear Ms. Pilcher:

         We have received the U.S. Department of Health and Human Services, Office of
  Inspector General (OIG) draft report entitled Review of Piedmont Hospital's Claims for Inpatient
  and Outpatient Procedures That Included the Replacement of Cardiac Medical Devices for
  Calendar Years 2008 and 2009 (the "Report"). Piedmont Hospital ("Piedmont" or the
  "Hospital") offers the following comments on the Report and the OIG's recommendations.

         The Report makes three recommendations, each of which is addressed below:

         •     Recommendation 1: Adjust and resubmit to Cahaba the two erroneous claims to
               correct any outstanding portion of overpayment totaling $4,625.

         Piedmont respectfully disagrees with this recommendation. Both claims identified as
  erroneous were inpatient claims that were billed in accordance with CMS guidelines, as
  understood by the Hospital at the time:

                                                                         The warranty credit for
         Patient PJK did not represent at least 50% of the cost of the device, and accordingly no
         refund was owed. As documented in Exhibit A, Patient PJK was admitted for inpatient
         services at Piedmont on December 28, 2009 because the lead device to this patient's
         cardiac defibrillator had failed. Patient PJK's records document that the interventional
         cardiologist capped the defective leads and inserted new leads. Importantly, because the
         ICD generator (Medtronic Model #7288, Serial # PUB112715H) was at late mid-life
         (original implant date 5/02/05), a new Medtronic ICD (D154AWG) was implanted.
         Although Piedmont received a device credit for the lead of $3,625, there was no warranty
                   Office of Inspector General Note - The deleted text has been redacted
                   because it is personally identifiable information.
                 2001 Peachtree Road NE ., Atlanta, Georgia 30309 • 404.605.4569
                                           piedmont.org
                                                                                     Page 2 of 3
                                                    Regional Inspector General for Audit Services
                                                                              December 23, 2011
                                                                                          Page 2



       credit for the ICD generator device, which cost $13,750, together with $500 for an
       additional lead that the patient required. Therefore, the total cost for the implanted device
       was $17,875, and so the warranty credit of $3,625 came to only 20% of the total cost.
       There is no error in the claim submitted, no overpayment resulted from the claim, and
       Piedmont is not obligated to make a refund.

                                                                       Patient BH had a complex
       medical condition that necessitated inpatient admission for multiple complications and
       cardiac issues, including the need for lead replacement. The lead had been originally
       implanted on March 8, 2005 and was the subject ofa recall. Notably, 42 C.F.R. § 419.45
       requires a reduction in the payment to the hospital only if the device is replaced without
       cost to the provider or beneficiary; the provider receives full credit for the cost of a
       replaced device; or the provider receives a partial credit of 50% or more of the total costs
       of the replaced device. Notwithstanding the OIG's present position, there is no
       requirement in the regulations that hospitals affirmatively pursue replacement device
       credits. Thus, based on the plain language of the regulation, there was no error in
       Piedmont's billing, as no credit had been received when the claim was billed. (It bears
       emphasizing, however, that notwithstanding the language in the regulation, Piedmont is,
       in fact, affirmatively pursuing replacement device credits).

       •   Recommendation 2: Review the remaining 1,057 claims (1,136 claims minus the 79
           claims we reviewed), focusing on inpatient claims, and resubmit the claims to Cahaba
           as appropriate.

        This recommendation seems unduly burdensome given the results of the OIG audit. In
its Report, the OIG notes that the scope of the audit was limited to claims involving the
replacement of pacemakers, cardiac defibrillators, and their associated leads. Prior OIG audits
indicated that these types of devices presented the greatest risk of noncompliance with Medicare
requirements. For Piedmont, the OIG reported that it filtered paid claims data to identify: 1) 574
outpatient claims, and 2) 562 inpatient claims. It is our understanding that from this universe,
the OIG auditors selected a "judgmental" sample of 47 outpatient claims and 32 inpatient claims
which were most likely to identify errors.

        As to the 47 outpatient claims, the OIG audit revealed only one outpatient claim that
should have included an FB or FC modifier. Yet for that claim, Piedmont billed only $1 and did
so specifically to ensure that it did not receive reimbursement for the replacement device.
Indeed, the Report notes that this "prevented Piedmont from being overpaid for the claim."
Accordingly, while Piedmont did not include the modifier code, the end result was the same -
the Hospital received no reimbursement for the replacement. Since there were no overpayments
identified in the audit, there is no basis for any further review of the remaining 527 outpatient
claims.


            Office of Inspector General Note - The deleted text has been redacted
            because it is personally identifiable information.
                                                                                    Page 3 of 3
                                                   Regional Inspector General for Audit Services
                                                                             December 23, 2011
                                                                                         Page 3



       With respect to the 32 inpatient claims, taking into the account the discussion above
regarding Patients PJK and BH, the OIG audit yielded, at most, only a single claim (for patient
BH) that should have included a replacement device modifier code.

        Moreover, the recommendation that Piedmont audit a universe of 1,057 claims seems
unfair in view of OIG recommendations with respect to other hospitals undergoing comparable
audits. Based on the published information concerning those audits, the OIG recommended that
those hospitals audit much smaller numbers of claims. Even if the claim for patient BH should
have included a modifier code, Piedmont's error rate is less than one-half of one percent. Thus,
the more onerous recommendation with respect to Piedmont seems unduly burdensome.

       • 	 Recommendation 3: Strengthen its procedures to obtain credits available from
           manufacturers and establish procedures to report to Cahaba the credits that Piedmont
           was entitled to, irrespective of whether the credits were obtained for replaced devices
           in accordance with Medicare requirements.

       Piedmont had procedures in place to report credits using appropriate modifiers.
Moreover, as acknowledged in the OIG Report, shortly after receiving a credit for the identified
outpatient claim and long before this audit, Piedmont re-billed the claim to ensure the
reimbursement was appropriate.

       Nevertheless, Piedmont is adopting additional policies and procedures to strengthen its
ongoing programs to document that it appropriately requests manufacturer credits for devices
under warranty.

      We look forward to continuing to work cooperatively with your office in resolving these
remammg issues.



                                              :lIY' ~c1
                                                    Tracy  ~Field
                                                    Executive Vice President, Compliance
                                                    Piedmont Healthcare, Inc.

Enclosure
